<html>
<title> - IRAN'S PERSECUTION OF AMERICAN PASTOR ABEDINI WORSENS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





         IRAN'S PERSECUTION OF AMERICAN PASTOR ABEDINI WORSENS

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                AND THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 12, 2013

                               __________

                           Serial No. 113-148

                               __________

        Printed for the use of the Committee on Foreign Affairs





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

86-006PDF                      WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001










                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
TOM MARINO, Pennsylvania             KAREN BASS, California
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
STEVE STOCKMAN, Texas                AMI BERA, California
MARK MEADOWS, North Carolina

                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
ADAM KINZINGER, Illinois             BRIAN HIGGINS, New York
TOM COTTON, Arkansas                 DAVID CICILLINE, Rhode Island
RANDY K. WEBER SR., Texas            ALAN GRAYSON, Florida
RON DeSANTIS, Florida                JUAN VARGAS, California
TREY RADEL, Florida                  BRADLEY S. SCHNEIDER, Illinois
DOUG COLLINS, Georgia                JOSEPH P. KENNEDY III, 
MARK MEADOWS, North Carolina             Massachusetts
TED S. YOHO, Florida                 GRACE MENG, New York
LUKE MESSER, Indiana                 LOIS FRANKEL, Florida

















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Katrina Lantos Swett, Ph.D., vice chair, U.S. Commission on 
  International Religious Freedom................................     9
Ms. Naghmeh Abedini, wife of Pastor Saeed Abedini................    24
Mr. Jordan Sekulow, executive director, American Center for Law 
  and Justice....................................................    31
Daniel Calingaert, Ph.D., executive vice president, Freedom House    39

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Katrina Lantos Swett, Ph.D.: Prepared statement..................    12
Ms. Naghmeh Abedini: Prepared statement..........................    27
Mr. Jordan Sekulow: Prepared statement...........................    34
Daniel Calingaert, Ph.D.: Prepared statement.....................    41

                                APPENDIX

Hearing notice...................................................    64
Hearing minutes..................................................    65
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations:
  Photograph of Naghmeh Abedini and her children.................    66
  Statement for the record from the Honorable Bill Cassidy, a 
    Representative in Congress from the State of Louisiana.......    67
The Honorable Ileana Ros-Lehtinen, a Representative in Congress 
  from the State of Florida, and chairman, Subcommittee on the 
  Middle East and North Africa: Material submitted for the record    68
The Honorable Mark Meadows, a Representative in Congress from the 
  State of North Carolina: Prepared statement....................    70

 
         IRAN'S PERSECUTION OF AMERICAN PASTOR ABEDINI WORSENS

                              ----------                              


                      THURSDAY, DECEMBER 12, 2013

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

          Global Human Rights, and International Organizations

         and Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committees met, pursuant to notice, at 9:30 a.m., in 
room 2172 Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the Subcommittee on Africa, Global Health, 
Global Human Rights, and International Organizations) 
presiding.
    Mr. Smith. The subcommittees will come to order. This is an 
important meeting of two subcommittees, the Subcommittee on 
Africa, Global Health, Global Human Rights, and International 
Organizations and the Subcommittee on the Middle East and North 
Africa. We are joined by our very distinguished chairman of 
that committee who is also chairman emeritus of the full 
committee and who has been absolutely, with a laser beam focus, 
looking at issues pertaining to and relating to Iran for the 
entirety of the last decade or more, so I want to thank her for 
her leadership.
    At our full committee hearing on Tuesday, the full Foreign 
Affairs Committee, I asked Secretary of State John Kerry 
whether he had raised Pastor Saeed Abedini's release during the 
Iranian nuclear talks. I read him the following advance excerpt 
of the testimony of Naghmeh Abedini, wife of Pastor Saeed 
Abedini, who is our very distinguished witness this morning, 
and as we all know, who remains imprisoned and subject to 
torture in Iran. And this is what she will say in pertinent 
part and this is what I had read to the Secretary of State: 
``While I am thankful for President Obama's willingness to 
express concern about my husband and the other imprisoned 
Americans in Iran,'' she said, ``during his recent phone 
conversation with Iran's President, Hassan Rouhani, I was 
devastated to learn that the administration didn't even ask for 
my husband's release when directly seated across the table from 
the leaders of the government that holds him captive.''
    She went on to say, ``My husband is suffering because he is 
a Christian. He is suffering because he is an American. Yet, 
his own government, at least the executive and diplomatic 
representatives, has abandoned him. Don't we owe it to him as a 
nation to stand up for his human rights, for his freedom?''
    Secretary Kerry acknowledged that he had not done that, he 
had not raised in the negotiations with the Iranians on the 
nuclear issue, confirming the awful report that Naghmeh had 
already heard.
    So as we speak, Pastor Abedini remains imprisoned in Iran, 
sharing a cell with violent criminals who have more than once 
surrounded Pastor Abedini as he tried to sleep, wielding knives 
and threatening his life. Pastor Saeed Abedini is an American 
citizen. He went to Iran last year to build an orphanage for 
Iranian children. He had been arrested in Iran before, but 
released and told he could enter and exit the country for 
humanitarian aid work if he agreed to cease pastoring house 
churches.
    As Pastor Abedini's wife, Naghmeh, will testify today, he 
accepted that proposal, but Iran did not uphold its end of the 
agreement. Pastor Abedini was arrested in July 2012, 
imprisoned, and tried for sharing his religious beliefs and 
thereby supposedly undermining the security of Iran. Imagine 
that, you share the good news of the Gospel and you threaten 
the security of Iran. But he was there to establish an 
orphanage.
    He was denied contact with his attorney until just before 
the trial. The trial was not public, and he and his attorney 
were barred from participating in key portions of the trial, 
following which a judge sentenced him to 8 years in prison. His 
appeals have been denied.
    In prison, he has been repeatedly beaten, denied medical 
care, and held in solitary confinement. While nuclear talks 
played out on the world stage, Iran moved Pastor Abedini to a 
prison notorious for housing the worst criminals in Iran. It is 
called Rajai Shahr. The very fact that Pastor Abedini was moved 
to a dangerous prison than the one he was at previously was 
certainly dangerous itself, in the middle of negotiations 
confirms that the Iranians recognized him as a potential factor 
in the negotiations.
    Since August 2012, the United States has reportedly 
released four Iranians, including most recently a high-ranking 
scientist, who were imprisoned in the U.S. for sanctions 
violations. Speaking for myself, I question whether these 
releases are unrelated to the nuclear talks. Were they allowed 
out in order to create a better atmosphere so the talks could 
go forward? And yet, American citizen Saeed Abedini remains in 
a hellhole prison in Iran.
    The U.S. Government must not waste another opportunity to 
secure the release of this brave and courageous father of two 
and devoted husband and a great pastor. His case needs to be 
front and center in the next round of U.S.-Iranian 
negotiations. Time is running out. Naghmeh, Rebecca, and Jacob 
need their husband and father home and they need him home now.
    I would like to yield to the distinguished gentlelady, the 
chairman of the other subcommittee, Ileana Ros-Lehtinen.
    Ms. Ros-Lehtinen. Well, thank you so much, Mr. Smith. We 
are blessed in Congress to have a leader of human rights with 
the passion, the intelligence of Chris Smith. We thank him for 
his on-going and relentless pursuit of liberty throughout the 
world and respect for human rights. And we are so honored also 
to look upon this beautiful portrait of our former Chairman Tom 
Lantos. And Chris Smith and Chairman Lantos were a great team. 
But he is still with us and we are so fortunate to have one of 
his daughters carrying on his work.
    And I would like to thank Ms. Abedini for joining us today. 
Our thoughts and our prayers are with you. They are with your 
family, your husband. And we commend you for your determination 
and perseverance to obtain his release.
    Last month our Middle East and North Africa Subcommittee, 
and then the full Foreign Affairs Committee, as you know, 
unanimously passed House Resolution 147, calling on the Iranian 
regime to immediately release Pastor Saeed and condemning the 
regime's ongoing persecution of religious minorities. This 
resolution sends a strong message on behalf of Pastor Saeed, 
his family, and the Iranian people whose human rights suffer 
under this brutal and this bill states that we stand with them 
in solidarity and we will continue to press for Pastor Saeed's 
release, and it calls upon the Government of Iran to respect 
the rights of its citizens.
    Although we are here to discuss in particular the plight of 
Pastor Saeed, we must also highlight that there are other 
Americans languishing in Iran's prisons or being held captive 
by the regime, like South Florida resident and constituent of 
Congressman Ted Deutch, the ranking member of our subcommittee, 
and that is Bob Levinson. Last month, Bob became the longest-
held American hostage in history, now in captivity in Iran for 
over 6 years. Earlier this week, I joined as a co-sponsor of 
House Resolution 435, introduced by Ranking Member Deutch, 
which calls for Iran's cooperation and immediate return of Bob 
Levinson.
    So we are here today because Rouhani's empty promises 
aren't only about Iran's nuclear programs, but about the 
reforms that he promised which have gone unfulfilled as the 
regime continues its policy of systematic and widespread 
suppression of human rights. On the campaign, Rouhani's 
charming words indicated that the regime will ease its 
repression of social freedoms and human rights. However, we 
must judge this regime not by its words, but by its actions, 
and in this regard, it has utterly failed.
    Since Rouhani took office, the rate of executions in Iran 
has sharply accelerated, with more than 300 executions carried 
out since August alone. And on September 2012, Pastor Saeed 
Abedini, an American citizen, was convicted on bogus charges 
and imprisoned after being accused by the regime of undermining 
national security. But his only so-called crimes were what? 
Working to establish an orphanage and practicing his Christian 
faith. He was supporting and ministering to churches in private 
homes, one of the only places in Iran where Christians and 
other religious minorities can practice their faith despite the 
fear of state persecution. In August, Pastor Saeed's unjust 8-
year sentence was upheld, and last month, as we know, he was 
transferred to a brutal prison reserved for Iran's most violent 
criminals, where his life is in constant danger.
    Sadly, the plight of Pastor Saeed is not an isolated 
incident, but it is symptomatic of the Iranian regime's 
hostility toward religious minorities. In October, four Iranian 
Christians were sentenced to 80 lashes for drinking sacramental 
wine during communion, and this past summer an Iranian 
Christian convert was sentenced to 10 years in prison for 
distributing Bibles. And it is not just Christians who are 
persecuted, but others including Muslim minorities and 
reformers, who also suffer for their beliefs. For example, the 
Baha'i community is systematically targeted and persecuted by 
the regime, and more than 100 members of this community and its 
leadership are imprisoned. In fact, under Iranian law, Baha'i 
members can be killed with impunity. For these flagrant 
violations, the U.S. has designated Iran as Country of 
Particular Concern since 1999, a regime that does not respect 
the fundamental human rights of religious freedom. For many 
persons this is a central aspect of their identity and of their 
life. This a country that won't respect other freedoms. We saw 
this when the regime crushed the freedoms of speech and 
assembly during the Green Revolution of 2009, when the 
administration sadly missed a critical opportunity to express 
support for the Iranian people.
    I was a lead sponsor of the Iran Threat Reduction and Syria 
Human Rights Act that was signed into law last August, which 
expanded sanctions related to human rights abuses in Iran, and 
though the administration has selectively applied some of these 
sanctions, more needs to be done. We must enforce all of the 
sanctions, including travel bans and asset freezes on regime 
officials responsible for committing human rights abuses. If 
the international community doesn't hold this regime 
accountable, no one will.
    I look forward to hearing from our witnesses on how we can 
help bring Pastor Saeed home, reunite him with his wife and his 
children, where he belongs. I thank the chairman again for 
holding this important hearing.
    Mr. Smith. Thank you very much, Chairwoman Ileana Ros-
Lehtinen for your very eloquent statement and again for your 
leadership on all things pertaining to Iran.
    Mr. Meadows?
    Mr. Meadows. Thank you, Mr. Chairman and Madam Chairman for 
calling this hearing and I thank each of you for being here. 
And for some of you who we have had here before, thank you for 
fighting for those who many times don't have a voice. And so I 
have got an opening statement, but I am going to speak probably 
more from the heart instead of going to that.
    Right now, we are in a critical time. We have negotiations 
going on with a country that quite frankly is not built on a 
foundation of trust. We don't trust them. They don't trust us. 
And yet, here we are fundamentally dealing with an issue with 
Pastor Saeed Abedini and his detainment and imprisonment in a 
situation that we would find just deplorable. But more 
importantly, the message is not getting out because so many 
times when we think of people in prison, we think of them there 
for just cause and I had the opportunity to look into this in 
detail. And yet, here is a man who agreed with the intelligence 
ministry not to conduct a particular activity for many years 
ago, would be granted to be able to come back and forth and 
work to establish an orphanage that was sanctioned by the 
Iranian Government. And so here he was supposedly working with 
the government under their approval and yet, he is tried and 
convicted and put in prison, but really not even with due 
process.
    So we are embarking right now on a situation where we are 
working with a nation on something far greater than that with 
regards to a nuclear agreement. That can only be negotiated 
based on mutual respect and trust and yet the foundation of 
trust has been violated with this particular situation and it 
is not being rectified. Over 440 days without a husband and a 
father. How many more Christmases are going to come and pass 
where this injustice is not rectified? If there is any message 
that Foreign Minister Zarif and the Iranian Government, if they 
want to have a message of trust and mutual trust, this request 
of releasing this individual at a minimum would say we are 
trying to negotiate in good faith and it would send messages to 
the entire nation that they want to operate in good faith.
    And so I think the message needs to be that if they cannot 
release this individual and others held without due process, 
then how are we to trust them on much greater positions that 
have national and international consequences? I would ask Mr. 
Chairman that my full opening statement be submitted for the 
record, if possible.
    Mr. Smith. Mr. Meadows, thank you very much. The chair 
recognizes Mr. Chabot, the chairman of the Asia and Pacific 
Subcommittee. We have four subcommittee chairmen here today, 
again, a testament to the concern that is shared across the 
aisle and throughout the entire House of Representatives.
    Mr. Chabot.
    Mr. Chabot. Thank you. I will be brief. I commend Chairmen 
Smith and Ros-Lehtinen for holding this timely hearing today. 
In light of recent developments in U.S.-Iranian relations, the 
case of Pastor Saeed Abedini and his imprisonment raises very 
grave concerns. If Iran expects to engage in a more transparent 
and honest relationship with the U.S. and other members of the 
global community, it must cease its egregious human rights 
abuses and adopt standards practiced by most of the civilized 
world.
    I think my colleagues would agree that the imprisonment of 
Pastor Abedini is a prime example of Iran's use of abhorrent 
practices to deny human rights protections to its religious 
minorities. If the Obama administration is going to negotiate 
with Iran concerning economic sanctions, the release of Pastor 
Abedini must be a priority. It should have been a precondition 
of negotiations from the start. I yield back.
    Mr. Smith. Thank you, Chairman Chabot. Ranking Member 
Deutch.
    Mr. Deutch. Thank you, Mr. Chairman. I appreciate it. 
Thanks for hosting this hearing on Pastor Abedini, detained 
American citizens, and the broader human rights situation in 
Iran. I also want to thank our witnesses, especially Ms. 
Abedini for being here today. Please know that Congress is 
committed to bringing your husband and all three detained 
Americans home as soon as possible.
    Our legislature is divided on many issues, but I am proud 
to say that Congress has been and always will be united in its 
support for international religious freedom and for protecting 
Americans overseas. That is why I am proud to support 
legislation from Mr. Cassidy, that calls for the release of 
Pastor Abedini and condemns the Government of Iran for its 
persecution of religious minorities.
    At a time when Iran is seeking to reengage with the 
international community, its ongoing persecution of Pastor 
Abedini is utterly deplorable. His arbitrary arrest and the 
complete lack of due process is bad enough, but his transfer to 
a more dangerous prison that is filled with Iran's most violent 
criminals demonstrates why the United States must do everything 
in our power to end his continued and unjust imprisonment. 
Unfortunately, Pastor Abedini's persecution is just the latest 
in a string of appalling actions the Iranian regime has taken 
against American citizens.
    Mr. Amir Hekmati has also been unfairly detained in Iran 
for more than 2 years. And Iran is also suspected of having 
significant knowledge about the whereabouts of my constituent, 
Robert Levinson. As many of you know, in March 2007, Mr. 
Levinson was taken hostage while visiting Iran's Kish Island. A 
retired FBI agent, husband, father to seven children, and 
grandfather of two, Mr. Levinson has missed 6 years worth of 
birthdays, anniversaries, weddings, and other milestones. 
November 26th was this 2,455th day in captivity, making him the 
longest held American hostage in our history. In response to 
his situation, this week my colleague and friend, Ms. Ros-
Lehtinen and I introduced H. Res. 435 urging Iran's Government 
to cooperate in his case and return Mr. Levinson home to his 
family as soon as possible.
    Yet, Iran's egregious human rights record is not limited to 
American citizens, nor is its vile mistreatment of its people 
new. Iran routinely imposes severe restrictions on expression, 
association, and assembly. Political activists and human rights 
defenders are routinely and arbitrarily arrested. Torture is 
common and is committed with impunity. Women, religious and 
ethnic minorities and members of the LGBT community are all 
routinely persecuted.
    Since taking office, President Rouhani has spoken about the 
need to repair Iran's relationship with the world and to ensure 
the rights of his people. Unfortunately, this rhetoric has not 
been matched with action. Hundreds of political prisoners 
remain in prison including former presidential candidates, Mir-
Hossein Mousavi and Mehdi Karroubi, who recently spent their 
1,000th day under house arrest. This year alone, more than 500 
Iranians have been executed, yielding Iran's highest number of 
executions ever in a rate that doubles Ahmadinejad's last year 
in office. And in the past few months, there has been a 
stunning wave of repression targeting the media and civil 
society that included banning of a prominent reformist daily 
and the arrests of a number of prominent political actors.
    All of this shows that Iran continues to flagrantly violate 
basic human rights and is doing nothing to uphold Article 18 of 
the Universal Declaration of Human Rights of which it is a 
signatory, that guarantees the right to freedom, religion, 
conscience, and thought. While most of the world is focused on 
the nuclear deal with Iran, today provides a timely opportunity 
to remind the people of Iran that we stand with them in their 
quest for dignity and for freedom. Preventing Iran from 
obtaining nuclear weapons capabilities is our paramount 
objective, but it must not, it must not impact our support for 
human rights in Iran. We must continue to press Iran to treat 
their people with due process and we must act to ensure the 
release of all political prisoners including Pastor Abedini, 
Amir Hekmati, and Robert Levinson. This hearing is an important 
step in this process, Mr. Chairman, and I yield back.
    Mr. Smith. Thank you very much, Mr. Deutch. Ms. Walorski, 
Congressman.
    Ms. Walorski. Thank you, Mr. Chairman, and Chairman Ros-
Lehtinen for allowing me to sit in on our committee today. I 
appreciate it. It is a very gracious offer.
    This case is one of great personal importance to me and I 
am grateful to all the witnesses for being here today. Ms. 
Abedini, my family and I pray for you every day and for your 
husband. My husband and I spent 4 years as missionaries in 
Eastern Europe involved in orphanage ministry as well and we 
appreciate your heart and can relate to your heart and we 
appreciate that.
    I am a co-sponsor of the resolution calling for your 
husband's release. I have signed on to multiple letters in his 
behalf and frankly, I am deeply embarrassed which is why I 
wanted to be able to come and sit in on this hearing today. 
Congress should not have to urge the administration to act in a 
case like this which involves the state sponsor of terrorism 
imprisoning an American citizen and I am deeply disappointed 
that the release was not a prerequisite for any Iranian peace 
deal.
    Once again, I would like to publicly urge our President and 
Secretary Kerry to do everything they can to secure the release 
of not only your husband, but the other Americans being held as 
well. I would also say that I am deeply, profoundly impacted by 
the increase in religious persecution under President Rouhani 
as we in this country so deeply value religious freedom and 
believe in religions free of persecution around the world that 
people should be able to hold their beliefs and be able to 
express their religious opinions as well. So I would just like 
to thank you for being here today and offer my support and 
thank you, Mr. Chairman, for allowing me to graciously sit on 
your committee.
    Mr. Smith. Thank you, Ms. Walorski. The chair recognizes 
the gentlelady from New York, Ms. Meng.
    Ms. Meng. I would like to thank our subcommittee chairs and 
ranking members for calling today's important hearing. We must 
keep our attention on the persecution of Pastor Abedini and 
insist that our Government officials demand his release in all 
meetings they have with their Iranian counterparts. Each and 
every human life is precious and as Members of Congress, we 
have a particular duty to look out for our citizens who are 
persecuted and wrongly jailed in distant lands. The Ayatollahs 
in Iran must know where we stand and must know that we view 
their continued mistreatment of Pastor Abedini as indicative of 
a lack of good faith on a range of other issues.
    Here in Congress, we will do whatever is in our power to 
bring back your husband, Ms. Abedini, Amir Hekmati, and Robert 
Levinson back home to their families here in America. Thank you 
and I yield back.
    Mr. Smith. Thank you very much, Ms. Meng. I would like to 
recognize Chairman Frank Wolf, and just before I do, note that 
last March, Chairman Wolf as chairman of the Lantos Commission 
welcomed Ms. Abedini to the Congress and she made a point at 
that hearing that the State Department had said, ``There is 
nothing that they could do.'' Chairman Wolf's hearing was a 
catalyst for at least some engagement and some high-level 
response and I want to thank the chairman for that. And I would 
also note parenthetically that Dr. Swett is the vice chair of 
the Commission on International Religious Freedom. That 
commission was created by Mr. Wolf's bill, the International 
Religious Freedom Act of 1998 and so we do have an expert here 
and a man who really made a huge difference and I recognize the 
chairman.
    Mr. Wolf. Thank you, Mr. Chairman. I have no comments. I 
just wanted to welcome the witnesses and say hello to Ms. 
Abedini. Thank you very much.
    Mr. Smith. Thank you very much. I would like to now welcome 
our very distinguished witnesses, beginning first with Dr. 
Katrina Lantos Swett who is the vice chair of the U.S. 
Commission on International Religious Freedom, an independent 
U.S. Government commission that monitors the universal rights 
to freedom of religion or belief abroad. She established the 
Lantos Foundation for Human Rights and Justice in 2008 and 
serves as its president and chief executive officer. This 
organization is proudly carrying on the unique legacy of her 
dad, the late Congressman Tom Lantos with whom many of us 
served and we are very, very honored to call him friend. She 
currently teaches human rights and foreign policy at Tufts 
University and has also worked on Capitol Hill as a consultant.
    We will then hear from Naghmeh Abedini, wife of Pastor 
Saeed Abedini. She is a U.S. citizen and was born in Iran and 
moved to the United States with her family when she was nine. 
Her husband Pastor Saeed Abedini, as we all know, is currently 
serving an 8-year sentence in the brutal Rajai Shahr prison in 
Iran. In 2002, in a visit to Tehran, Naghmeh met Saeed and 
began assisting him in his ministry to house churches in Tehran 
and they were married in 2004. She has been apart from her 
husband for more than a year as he remains imprisoned. They 
have two young children, Rebecca and Jacob, and no one has done 
more on behalf of any imprisoned person that I have ever seen, 
and I have been here 33 years, than this very devoted, and very 
articulate wife of Saeed Abedini.
    We will then hear from Mr. Jordan Seulow who is Pastor 
Abedini's attorney. He is the executive director of the 
American Center for Law and Justice. He is also the host of 
radio and television programs featuring elected officials. He 
oversees much of ACLJ's international work, engaging with 
government officials and international leaders on human rights 
issues around the world, including, and especially, religious 
freedom.
    We will then hear from Daniel Calingaert who is executive 
vice president at Freedom House where he oversees contributions 
to policy debate on democracy and human rights issues and 
outreach. He previously supervised Freedom House's civil 
society and media programs worldwide and contributes frequently 
to policy and media discussions on Internet freedom. Prior to 
joining Freedom House, Dr. Calingaert was associate director of 
the American University Center for Democracy and Election 
Management and associate director of the Commission on Federal 
Election Reform. He also served as director for Asia and as 
deputy director of Eastern Europe at the International 
Republican Institute.
    Dr. Swett, if you could begin.

  STATEMENT OF KATRINA LANTOS SWETT, PH.D., VICE CHAIR, U.S. 
         COMMISSION ON INTERNATIONAL RELIGIOUS FREEDOM

    Ms. Lantos Swett. Thank you so much. It is always a great 
honor for me to appear before this committee and to have the 
chance to speak with some of the very distinguished colleagues 
of my late father, and of course, I am always mindful when I am 
here that I am testifying under his watchful eye and so I will 
try to be on good behavior. I also want to just say briefly 
what a privilege it is to testify with Ms. Abedini. She is a 
towering example of love and devotion and courage. And I just 
want to say to you that you will prevail in your wonderful 
mission to free your husband. I remember another beautiful 
young wife, Avital Sharansky, from another generation who 
tirelessly worked walking the halls of Congress and meeting 
with the media to press for freedom for her husband, Natan 
Sharansky, and she was ultimately successfully. You will be as 
well and we are all standing with you and behind you and next 
to you.
    I want to thank Representatives Smith and Ros-Lehtinen and 
your subcommittees for holding this hearing and inviting USCIRF 
to testify. With your approval, I will submit my written 
testimony for the record.
    Mr. Smith. Without objection, so ordered.
    Ms. Lantos Swett. Thank you. I commend your focus on the 
continued deterioration of religious freedom conditions in 
Iran, most notably for Christians and other religious 
minorities and for highlighting the egregious treatment of 
Pastor Saeed Abedini. USCIRF stands with Ms. Abedini and her 
family, has called repeatedly for the Pastor's release, and 
urges the U.S. Government at the highest levels to demand his 
release.
    Unfortunately, the appalling treatment of Pastor Abedini 
reflects the dismal reality of religious freedom and human 
rights in Iran today. The rights and beliefs defining the 
Iranian dictatorship's character remains self-consciously 
religious and inescapably theocratic. Any Iranian dissenting 
from the government's interpretation of Shia Islam may be 
considered the state's enemy and a potential target for abuse. 
Because religion matters significantly to Iran's Government, we 
must look at how the government treats the right to religious 
freedom to assess the overall status or direction of human 
rights. That lends also as necessary to evaluate Iran's current 
President, Hassan Rouhani. The number of Christians and Baha'is 
jailed during his short tenure has increased and a crackdown on 
Protestant Christians has brought numerous arrests.
    In June 2009, Iran reached a watershed moment when after a 
national election, citizens protested the legitimacy of its 
outcome. Tehran responded with brutal repression. Since then, 
human rights and religious freedom conditions have worsened to 
levels unseen since the early years after the '79 revolution.
    The United States, since 1999, annually, has designated 
Iran a Country of Particular Concern or CPC. Its government 
continues to rank among the world's worst religious freedom 
abusers engaging in and tolerating systematic, ongoing, and 
egregious violations. Members of religious minorities, 
including Baha'is or Zoroastrians, Christians, Jews, Muslims 
belonging to minority Sufi and Sunni sects, and even Muslims 
part of Iran's Shia majority have had their fundamental rights 
abused.
    Among Iran's minority religious communities, the Baha'is 
long have been subject to particularly severe religious freedom 
abuses. Besides its severe mistreatment of Baha'is, Iran's 
Government discriminates against and represses Christians. 
While all of Iran's Christians face the regime that restricts 
their rights, Tehran reserves particularly harsh treatment for 
Protestant Christians. Next to Baha'is authorities view the 
Protestant community as the most serious competitor of the 
theocratic government for Iranians' hearts and minds.
    Iranian Christians, including Protestants, constitute less 
than 1 percent of Iran's 75 million citizens and it reflects 
the fundamental weakness and insecurity of the regime that they 
should consider them such a threat. Unlike Iran's ethnic 
Christian population, the vast majority of Iran's Protestants 
are converts from Islam. While conversion is a fundamental 
freedom that international law and covenants guarantee, Iran's 
Government views conversion from Islam as an act against Islam 
and Iran's character as an Islamic state, in other words, as an 
act of apostasy, punishable by death.
    Revolutionary Courts also charge converts with political 
crimes such as acting against national security or contact with 
a foreign enemy. Hundreds of Christians, mostly Protestants, 
have been arbitrarily arrested and detained. The U.N. special 
rapporteur's October report found that since 2010 more than 300 
Christians have been arrested and detained. As of July, at 
least 20 Christians were detained or imprisoned. In a 
particularly outrageous miscarriage of justice, Judge Pir-
Abassi, notorious for perpetrating religious freedom violations 
sentenced Saeed Abedini, an Iranian-born American pastor on 
January 27, 2013 to 8 years in prison for ``threatening the 
national security of Iran.'' His crimes? Participating in 
Iran's house church movement and raising money for an 
orphanage. Human rights groups view his trial, like those of 
other condemned, as unfair and the legal process deeply flawed. 
He spent many weeks in solitary confinement and suffered mental 
and physical abuse while at Evin Prison. Last month, Pastor 
Abedini was transferred to the Gohardasht Prison outside Tehran 
which is known for its harsh and unsanitary conditions.
    Below are selected USCIRF recommendations. Others and more 
detailed ones can be found in our written testimony. First, the 
U.S. Government should continue to designate Iran as a Country 
of Particular Concern. Second, Congress should reauthorize for 
multiple years, and the President should sign into law, the 
Lautenberg amendment which has provided a lifeline for Iranian 
religious minorities. Third, the U.S. at the highest level 
should call on the Iranian Government to release all prisoners 
who have been jailed due to their religion or belief and drop 
all charges against those with pending cases, including, and I 
hope you will bear with me as I show the pictures of these 
individuals, because we must never forget, these are real flesh 
and blood human beings who are being persecuted.
    So those we call upon to be released are Saeed Abedini, 
Farshid Fathi, Benham Irani, Vahid Hakkani, and there are too 
many others of these Christians, but some of them are noted in 
my written testimony. Among the Shia Muslims who are 
persecuted, Ayatollah Hossein Kazemeni Boroujerdi, the Baha'i 
Seven including Fariba Kamalabadi and Mahvash Sabet, the Baha'i 
educators, Faran Hesami and Riaz Sobhani; and finally, the Sufi 
activist, Hamid-Reza Moradi.
    USCIRF encourages representatives and this is really 
directed at each one of you, to join the Defending Freedoms 
Project, an initiative of the Tom Lantos Human Rights 
Commission in conjunction with USCIRF and Amnesty 
International. Members adopt a prisoner of conscience and 
advocate on their behalf and shine a light on the conditions in 
the country and the government that imprisons them. The U.S. 
Government should continue to identify Iranian Government 
agencies and officials responsible for particularly severe 
violations of religious freedom, bar them from entry into the 
U.S. and freeze their assets.
    My written testimony notes nine individuals, including the 
Supreme Leader Ayatollah Ali Khamenei. Just last week, national 
security advisor, Susan Rice, reaffirmed the administration's 
commitment to continue to sanction Iran's human rights abusers. 
We welcome further action by the Treasury and State 
Departments, especially given that the European Union has far 
outpaced the United States in identifying and sanctioning these 
violators.
    Iran's religious freedom abuses demand the world's 
attention and action, especially given that the Iranian 
Government may use efforts to resolve the nuclear issue to 
divert attention from the increasing mistreatment of Christians 
and other religious minorities. We cannot let that happen. If 
Pastor Abedini and religious minorities in Iran ever needed a 
voice to condemn Iran's abusive practices it is now. The Obama 
administration and Members of Congress should insist that Iran 
demonstrate its commitment to peaceful intentions abroad by 
ceasing its war at home against its own people and their 
fundamental rights including the right of freedom of religion 
or belief. Thank you and I look forward to answering your 
questions.
    [The prepared statement of Ms. Lantos Swett follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              

    Mr. Smith. Dr. Swett, I just want to thank you very much 
for your testimony and for bringing additional focus on all of 
the other imprisoned individuals who are there because of their 
faith.
    Ms. Abedini, it is a high honor and privilege to welcome 
you to the two subcommittees.

 STATEMENT OF MS. NAGHMEH ABEDINI, WIFE OF PASTOR SAEED ABEDINI

    Ms. Abedini. Thank you, Mr. Chairman, and members of the 
subcommittees. My name is Naghmeh Abedini. I have submitted my 
full statement for the record and I would like to use this time 
to tell the story of our family and ask for your assistance.
    Mr. Smith. Without objection, your and all the witnesses' 
full statements and any papers you would like to attach to the 
record will be made a part of the record.
    Ms. Abedini. Thank you. When I spoke in front of the Tom 
Lantos Human Rights Commission in March of this year, I had 
anticipated that I would battle the Iranian Government for my 
husband's freedom. I never anticipated that I would also have 
to battle my own Government and that the journey would become 
even much more difficult than it had been.
    My husband is suffering because he is a Christian. He is 
suffering because he is an American. Yet, his own government 
did not fight for him when his captors were across the table 
from them. Saeed converted from Islam to Christianity in the 
year 2000 after having a radical encounter with Jesus and in 
that encounter Jesus Christ told Saeed that he was coming back 
soon and to go preach the Gospel. And from there his life was 
transformed and if he would sit here to testify today, he would 
say he found true joy, love, and peace that he could not find 
in his former religion.
    So today, Saeed sits in that Iranian prison being tortured 
for his faith. He will not deny the faith that has saved him, 
that his given him life. He refuses to deny his faith in Jesus 
and return to Islam. When the Iranian Government sentenced him 
to 8 years in prison in January of this year, they went back to 
the years 2000 and 2005, the year of his conversion and the 
year where the house churches were started and he was working 
under a more moderate government. Khatami was the name of the 
President previous before President Ahmadinejad. And at that 
time, he was working under the supervision of a government-
approved building church. The Iranian Government was well aware 
of the house church movement and was allowing it. So for them 
to have arrested him in the year 2012 when he was working with 
the Iranian Government on a government-approved orphanage and 
to say that his crime dated back to 13 years earlier when he 
was working under a different administration, under a different 
President, was unbelievable. And to say that he was undermining 
the national security of Iran by having started those house 
churches, Christian gatherings, and in the court hearing, they 
actually said he conducted soft war. It is unbelievable that 
they would consider peaceful gatherings of Christians an act of 
war.
    As many of you who have mentioned today, Saeed has been 
tortured. He has been beaten, abused, and told to deny his 
Christian faith and that if he would return to Islam, he would 
be freed. He has been in that prison, and the kids and I have 
not seen him since June of last year, but he has been sitting 
in Evin Prison since September. And recently last month, he was 
moved to Rajad Shahr Prison where his condition has worsened 
and the kids and I fear for his life.
    I want to share a little bit of a personal story here. This 
is the first day of school. It was a very painful time. I am 
trying to smile. But tears were streaming down my face as I got 
my two kids ready for school, knowing that their dad was 
missing. And as I took them to school, I could see their 
wandering eyes looking at other daddies holding their kids and 
putting them to school. And I was trying to distract them, but 
it was a painful time for them to know that their daddy was 
missing and it was a painful time for me. It has been hard. It 
has been a struggle as a mom watching as my 7-year-old and my 
5-year-old cry themselves to sleep every single night for the 
last 444 days. And knowing that unless we get Saeed out 
quickly, he might serve the 8 years, or even more, or he might 
not even survive that prison sentence.
    He wrote a recent letter to my daughter on her seventh 
birthday and he had seen a picture of her and his parents when 
they visit him in prison, they say that when they hold the 
pictures of the kids in front of him, he just cries. And he 
wrote in a letter, he said,

        ``It is so hard and so heartbreaking for me to see 
        these pictures and to know that I am not there beside 
        you as you grow. I came here to help the kids that did 
        not have mommies and daddies, but my own kids lost 
        their daddy. This breaks my heart so much. I want you 
        to know that I did not want to put so my pressure on 
        your little shoulders, my precious children.''

    While I am grateful for the official declaration to 
national media and public acknowledgment from our Government, 
it is not enough. We need to see action to back our rhetoric in 
the living breathing form of Saeed Abedini, alive and well, 
having been immediately released to the reuniting embrace of 
our family. Not all Americans are Christians, but every 
American regardless of their belief, needs to be reassured and 
know that our Government will take decisive action to protect 
us if our fundamental rights are violated.
    An American President who has taken his oath of office with 
honorable intention and is attuned to the international issues 
will recognize Iran's treatment of Saeed for the assault that 
it is on our national security. For Iran's treatment of Saeed 
Abedini is not about one American citizen experiencing a living 
nightmare for his religious belief. Iran's treatment of Saeed 
Abedini is an experiment. Iran is curious. How strong is our 
American President? How serious is he about American security? 
Would he act immediately with firm resolve to protect and to 
defend?
    Time is of the essence. Iran's experiment for evaluating 
the integrity of Americans' response to assault on her security 
is almost complete. And Iran is not the only country watching 
our reaction. Even if our President can't see the reality, the 
rest of the world can. In the interest of Americans' confidence 
in the competency of her government officials, her national 
security and international standing, Saeed Abedini needs to be 
released now.
    I want to say that I can't express how grateful I am to the 
Members of Congress who have refused to let my husband be 
forgotten. And I would like to end with as we approach 
Christmas, it is a joyful time of the year, but it is a painful 
time for our family to celebrate another year without my 
husband.
    I want to end with this, Saeed is in that prison because he 
believes ``unto us a child is born, unto us a son is given; and 
the government will be upon his shoulder. His name will be 
called Wonderful, Counselor, Mighty God, Everlasting Father, 
Prince of Peace.'' And this season, I not only pray for the 
release of my husband, but I hope and I pray that our 
Government would realize where we have fallen from and how far 
we have fallen and that we would return to the source of 
blessing. May God bless America, the land that I love. Thank 
you. God bless you.
    [The prepared statement of Ms. Abedini follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Smith. Ms. Abedini, thank you so very much for those 
powerful words and that testimony causes every one of us to 
redouble our efforts to do everything possible to ensure that 
your husband is released immediately, so thank you so very 
much.
    Mr. Sekulow.

 STATEMENT OF MR. JORDAN SEKULOW, EXECUTIVE DIRECTOR, AMERICAN 
                   CENTER FOR LAW AND JUSTICE

    Mr. Sekulow. Chairman Smith and Chairman Ros-Lehtinen, the 
ranking member Deutch, the other co-chairs and chairs of 
subcommittees that are here today, and members of the 
subcommittees, I am deeply honored to present this report on 
behalf of Pastor Saeed and Naghmeh Abedini as their attorney, 
as an organization that represents them and their two children. 
They are American children, Rebecca and Jacob. My primary 
purpose for submitting this testimony is to impress upon 
Congress the desperate need for great urgency as Pastor Saeed 
is in a dire predicament. Congress has done more than any 
branch of government. Congress has been there. And it has been 
bipartisan.
    First, let me begin by thanking you and your staffs for 
having this hearing and we started back in March at the Lantos 
Commission and now here. Months later, the United States, in an 
unprecedented move that we did not predict or could not predict 
then, is now sitting with Iran. And it is important for us to 
point out right now that we don't see this religious liberty at 
all as a partisan issue. So I want to recognize that the 
unbelievable bipartisan efforts that have occurred within this 
Congress on behalf of Pastor Saeed Abedini we don't forget that 
and when we speak out on Saeed's behalf and if we are critical 
of the administration, we always make sure to mention that 
there has been that bipartisan support.
    I am hopeful that today's hearing will highlight the 
commitment to this case that so many of you have shown and the 
world will hear the U.S. Government speaking with one voice. It 
is so clear, one voice, in strong defense of our fellow citizen 
Pastor Saeed Abedini, at such a critical juncture with the U.S. 
Government literally sitting across the table from Iran. We 
could never have imagined that would occur when we first 
testified before the Lantos Commission in March. At the table, 
for the first time in 34 years. We need to ensure that Pastor 
Saeed and the other Americans mentioned here today, wrongfully 
detained, are seen as not a marginal issue, but an essential, 
of those ongoing diplomatic talks. Pastor Saeed Abedini, a U.S. 
citizen, has been unnecessarily separated from his wife, 
Naghmeh and two children for 17 months, 444 days.
    The Islamic Republic of Iran has arbitrarily detained and 
imprisoned Pastor Saeed, subjecting him to violence and abuse, 
violating both Iranian law and international norms. His trial 
lacked transparency and due process and yet appeals courts in 
Tehran upheld his conviction, an 8-year prison sentence. Pastor 
Saeed has exhausted all legal remedies in Iran to appeal this 
arbitrary conviction and his detention. His freedom now rests 
solely on the success of diplomatic efforts by the United 
States Government and world leaders dedicated to human rights. 
Now Naghmeh has outlined the time line of Saeed's case in a 
more detailed outline as in my submitted remarks.
    Allow me to briefly highlight just a couple of more 
egregious facts about the legal proceedings. First, Saeed was 
detained arbitrarily and while conducting humanitarian work 
with the full approval of the Iranian Government. Next, Saeed 
was imprisoned and subjected to solitary confinement, without 
even being informed about the charges against him. Third, Saeed 
was informed of the official charges against him less than a 
week before his sham trial and denied access to his attorney 
until less than 24 hours before that trial. Finally, Saeed and 
his attorney were barred from attending the second half of the 
trial. The half in which ``key witness testimony'' was taken, 
thereby denying his legal team the ability to question or even 
know who those witnesses were. Predictably, this resulted in 
Saeed's conviction, an 8-year prison sentence on January 27, 
2013.
    Judge Pir-Abassi, who presided over Pastor Saeed's trial, 
has earned the nickname the hanging judge. Despite the fact 
that Judge Pir-Abassi has been individually sanctioned by the 
European Union and that the U.S. Commission on International 
Religious Freedom under the chair of Ms. Swett and also now 
vice chair, has repeatedly made a similar recommendation to the 
United States Department of State. To date, the U.S. has failed 
to place any sanctions on Judge Pir-Abassi. The EU has acted. 
The United States has not.
    You heard from Naghmeh about the horrific prison conditions 
that Saeed is enduring, that he is being denied basic medical 
care and that he has been transferred to a much more difficult 
prison than Evin Prison. See, this is Rajai Shahr Prison, built 
for 5,000 violent criminals, real criminals, murderers, 
rapists, drug dealers, people convicted and sentenced to death 
or life in prison. Built for 5,000 inmates, it is currently 
housing approximately 22,000. It is a prison out of control 
with violence. To define the situation as inhumane would be a 
gross understatement. In addition to the horrific abuse and 
torture Pastor Saeed has faced at the hands of his own brutal 
Iranian captors, Pastor Saeed has not always had the full 
backing of his own government. And I want to be clear here, I 
mean the executive branch. Members of Congress have been with 
us on both sides, Republican and Democrat, since the beginning.
    When the Iranian Government initially detained Pastor 
Saeed, the U.S. State Department excused its lack of assistance 
on the fact that the U.S. lacked any diplomatic ties with Iran. 
That doesn't work any more. So now when the U.S. has 
historically communicated with, sits across from the table of 
the Iranian Government, the U.S. Government has still failed to 
secure the release of Pastor Saeed and the other Americans in 
prison.
    As Naghmeh pointed out, this Congress has spoken with 
strength and unity on behalf of Pastor Saeed and we are 
grateful that President Obama expressed his concern about the 
Americans imprisoned in Iran on his historic phone call with 
Iranian President Hassan Rouhani back in September. But as you 
all know, as Members of Congress, as principals, if there is no 
follow up to your discussion, little gets done. Everyone has a 
lot to do. And you have staff, you have staff that you rely to 
make sure what you have agreed to on phone calls or said you 
will do is done. Yet, 2 days ago, Secretary of State Kerry sat 
at this table and to you Chairman Smith, he said that this 
matter is a priority for him. But numerous statements from his 
Department claim that Saeed was either not brought or only 
discussed on the margins. For us, you can understand the 
incompetence. Was he brought up? Was he on the margins?
    If you look at Secretary Kerry's statements to you, 
Chairman Smith, it is very difficult to tell. He made a pretty 
broad statement of no. But you have had others including those 
who were even going before their hearings in the Senate for 
confirmation yesterday tell Senator Rubio that he was brought 
up on the margins of the P5+1. So who is telling the truth? We 
were told he was by the State Department. But then when 
Secretary Kerry testified and there are other statements we can 
point to as well, the Deputy National Security Advisory Tony 
Blinken said on CNN to Wolf Blitzer, no, it was not, it was not 
part of the agenda. But yet, the National Security Council 
spokesperson Ben Rhodes later that day on CNN said it was on 
the margins. On the margins is bad enough, not at all is even 
worse. We don't know which one of those to believe.
    And that is why we believe, Mr. Chairman, that that offer 
from Secretary Kerry to hold that classified briefing for 
Members of Congress should be absolutely acted upon and we 
would welcome the opportunity to provide you with the kind of 
questions and information that we have received from the State 
Department so that you can get the answers and we can hear back 
from you at least to know whether you are satisfied with what 
we believe is our Government's incompetence.
    Let me just close by expressing my gratitude to both 
subcommittees for taking an active role in Pastor Saeed's case. 
And just to highlight again that while our Government sat 
across the table from the Iranian delegation, Saeed was 
transferred to a worse prison. Was it on the margins or was it 
not on the agenda? That is an answer we need from the United 
States executive branch and from the Obama administration. 
Thank you, Mr. Chairman.
    [The prepared statement of Mr. Sekulow follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Smith. Thank you, Mr. Sekulow, and we will indeed 
follow up with that classified briefing. I, and I know everyone 
else who is concerned about Pastor Abedini, will be raising 
this issue repeatedly going forward at every venue where we 
have an interface with the administration because there was a 
sense of conflicting information even as the Secretary of State 
spoke. So thank you for your testimony and for being an 
excellent lawyer on behalf of Mr. Abedini.
    Mr. Calingaert.

     STATEMENT OF DANIEL CALINGAERT, PH.D., EXECUTIVE VICE 
                    PRESIDENT, FREEDOM HOUSE

    Mr. Calingaert. Thank you, Mr. Chairman, Madam Chairman, 
honorable members. I appreciate the opportunity to speak to you 
today. I want to thank you for your leadership in championing 
the case of Pastor Abedini and pressing for his release. Sadly, 
the kinds of abuses that he suffers are all too common in Iran. 
During the campaign for the Presidency of Iran, Hassan Rouhani 
repeatedly promised to release all political prisoners and to 
make a change in favor of free speech and media freedom. The 
record of his first 4 months in office shows otherwise. He has 
yet to live up to these promises.
    Fifteen prominent political prisoners were released in 
September, but approximately 800 dissidents including human 
rights defenders, journalists, and political activists remain 
unjustly detained in Iran. The leaders of the Green Movement, 
Mir-Hossein Mousavi, Mehdi Karroubi, and Zahra Rahnavard are 
still under house arrest. While some limited space has opened 
up for women's rights activists, the overall situation for 
human rights in Iran is as grim under President Rouhani as it 
was before.
    In the past few weeks, Iran's Interior Ministry and 
Revolutionary Guards have carried out a new wave of arrests to 
stifle free expression. At least 38 people were arrested, 
including editors and staff of a technology Web site, Narenji, 
and activists in the Province of Kerman who were accused of 
receiving foreign assistance to produce online content that 
undermines the Islamic regime. These arrests come on the heels 
of a December 3rd court ruling that exonerated government 
officials accused of murdering Sattar Beheshti, a blogger who 
was detained by the Iranian cyber police, and was later found 
dead in his jail cell with bruises on his body.
    Iran is second only to China in the number of executions it 
carries out. This year, 668 reported executions have already 
taken place. Virtually all capital cases lack internationally 
recognized standards of due process and death sentences are 
often imposed for relatively minor crimes such as drug 
possession. The Iranian regime, dominated by Shiite clerics and 
Revolutionary Guard commanders is highly repressive. It 
systematically tramples political and civil rights. In Freedom 
House's annual report on freedom in the world, Iran receives a 
rating of six on a scale of one to seven, where seven is the 
lowest score.
    The election of Rouhani was welcomed by some in Iran and 
abroad because he was the least conservative of the candidates, 
but his election was anything but fair. Over 600 candidates had 
registered to run in that election, but only 6 names appeared 
on the ballot and who made that decision? The Guardian Council, 
12 Islamic clerics and jurists, not the voters.
    The media environment in Iran is among the most restrictive 
in the world. Iran ranks 191st out of 197 countries in Freedom 
House's annual ratings on media freedom. The government 
directly controls all television and radio broadcasting and 
print media, blogs, and news Web site are severely censored. 
Restrictions on online space are equally, if not more severe. 
In the latest edition of Freedom House's rankings on Internet 
freedom which covered 60 countries, Iran came in the very last 
place.
    With all that is at stake in the negotiations with Iran on 
its nuclear program, there is a temptation to put aside human 
rights issues because they might complicate the negotiations. 
But that would be a mistake. Speaking out for human rights in 
Iran as elsewhere both reflects U.S. values and serves U.S. 
interests and it can be done at the same time as we negotiate 
on nuclear matters.
    The Iranian people's aspirations for greater freedom are 
abundantly clear. They were expressed in the votes for Rouhani 
and his promises for change and they were seen in a recent 
Zogby poll that showed issues of political reform trumped other 
concerns. The Iranian regime stifles free expression because 
the citizens are expressing a desire for political change. They 
want to modernize their country, to exchange opinions freely, 
and to become open to the rest of the world. An Iranian 
Government that is more attuned to the views of its own 
citizens will be less hostile toward the United States and more 
constructive in its foreign relations.
    When faced with international criticism of its human rights 
abuses, the Iranian Government invariably is defiant, but it 
does listen. International pressure has, for example, led to 
the release of former political prisoners such as Maziar 
Bahari, Roxana Saberi, and most recently in September Nasrin 
Sotoudeh. One thing is certain, the Iranian Government's record 
on human rights does not improve when the United States stays 
silent. The United States can put human rights high on the 
agenda with its adversaries at the same time as it addresses 
other sensitive and complex issues. The Reagan administration 
kept human rights on the agenda while negotiating nuclear arms 
treaties with the Soviet Union.
    President Clinton spoke out about the struggle for 
individual freedom at Beijing University during a state visit 
in 1998 and still held constructive talks with Chinese 
Government leaders on a range of security and economic issues.
    Iranians who want to change their country for the better 
understand that the struggle for freedom is their struggle. 
They have to stand up for their rights and demand that their 
government listen to them. But Iranians notice what we in the 
United States say and don't say. When we stay silent, we send 
the message that we don't care about their struggle for freedom 
and that message is disheartening for Iranians today and it 
will hurt our credibility with them for a long time to come. 
The United States needs to put human rights on its agenda with 
the Government of Iran. Thank you.
    [The prepared statement of Mr. Calingaert follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Smith. Mr. Calingaert, thank you very much for your 
testimony and for your historical perspective as well. As you 
were speaking, it called to mind the point Dr. Lantos Swett 
made about Natan Sharansky and his wife who worked tirelessly 
for his release. Chairman Wolf and I were actually in Perm Camp 
35, the infamous prison where Sharansky had been incarcerated, 
just a few months after he was released. Obviously, many other 
political prisoners were still there, but the lesson learned 
from the way we handled human rights with the Soviet Union was 
that you integrate them, you never stovepipe them. We risked 
superpower confrontation with a country that was wrestling with 
nuclear weapons aimed at the United States because we put human 
rights and the value of human life at such a high level. When 
Secretary Schultz would visit Moscow, and my first trip to the 
Soviet Union was in '82 on behalf of Soviet Jewish refusniks, 
he would always meet with all the dissidents and then meet with 
the Soviets as well. There was never this stovepiping, this 
separation, this doing something in another room. And I think 
you are a reminder of that, Mr. Calingaert. And you did it was 
well, Mr. Sekulow, you all did, frankly. Because I am very 
concerned, especially of the response to the question I asked 
of the Secretary just 2 days ago that and the different 
versions that we have gotten from other people within the 
administration. Was it discussed or not? And it would seem if 
it was discussed at all, it was on the margins, but it should 
have been center stage.
    Every conversation we had with the Iranians should have 
begun with Saeed Abedini and ended with Saeed Abedini. How can 
we trust the Iranians' signature on a piece of paper if they so 
callously mistreat not only their own human rights defenders, 
but if they take pastors like Saeed Abedini, an American, and 
not only incarcerate him, but as you pointed out, Mr. Sekulow, 
at the very time when these negotiations are happening, 
transfer him from one terrible prison to an infamous prison 
where he is even at greater risk. That was a message sender 
that seemed to have been missed by the U.S. Department of State 
and by the administration.
    And I would agree with all of you who made it very clear, 
there is no partisanship here. I can tell you having been here 
33 years, when we unite in human rights in Congress, no matter 
who is in the White House, it is all about standing up for the 
victims and others, their families, like Ms. Abedini and making 
sure we speak out very loudly and very clearly. We are not in 
those negotiations face-to-face with, in this case, the 
Iranians, so again I think your message here today that this 
has to be integrated, mainstreamed, and not stovepiped is very 
clear because I, too, like others on this panel, think about 
and pray about Pastor Abedini every single day. So thank you 
for reminding us just how important that this is. So the 
integration issue is very important.
    If I could ask very quickly, Dr. Lantos Swett, you have 
asked as a commission that under Section 105 of the 
Comprehensive Iran Sanctions and Disinvestment Act that certain 
Iranian officials be censured because of their mistreatment 
based on religious persecution. If I could also just ask, when 
you said, Mr. Sekulow, that Pastor Saeed has exhausted all 
legal remedies, who now makes the decision? It really does come 
down to a negotiation with the United States, doesn't it? They 
have to know that the value is sufficiently high that the 
relationship with Iran hinges, the tipping point, is how well 
or how poorly going forward they treat Pastor Abedini.
    And finally, your statement, Ms. Abedini, was very bold, 
when you called on the President to reengage, when you called 
on the Secretary of State to reengage and when you said 
``please don't let this case be discussed on the margins and 
please make his case a priority.'' There will be more 
negotiations and I think the sooner that reengagement occurs, 
the better. If you would want to elaborate on that as well.
    Dr. Lantos Swett?
    Ms. Lantos Swett. Well, we think that the application of 
sanctions directed at specific people implicated in human 
rights and religious freedom abuses is incredibly important. It 
is part of a long tradition, successful tradition of the human 
rights movement in general to name and shame and blame, to 
identify, to pin responsibility on those responsible. And so it 
really is critically important and the fact is there has been a 
lot of discussion about President Rouhani's charm offensive, 
but when we look at what is actually going on in Iran under his 
leadership, it is actually more offensive than it is charming, 
particularly again as it relates to religious freedom 
violations.
    And so we feel very, very strongly that that step of our 
Government officially saying you are not welcome here, if you 
have assets here, they will be frozen, they will be put beyond 
your reach, those sorts of concrete steps. Send that message, 
that you are not a political leader, engaging in respectful and 
appropriate sort of leadership in your country. You are someone 
who is personally implicated in vile abuses of the human rights 
of your citizens. We know it. We are saying it and by doing so 
the rest of the world knows it as well.
    Ms. Abedini. Thank you, Mr. Chairman. In my statement when 
I discussed that Saeed cannot be left in the margins, I believe 
that if we do not speak out, if we do not put him at the center 
stage, then we are sending the world the wrong message about 
where we stand in terms of human rights issues. We are sending 
it to Iran, but especially in the Middle East, with the high 
increase of persecution of the Christians and religious 
minorities, I believe by putting Saeed as just not a person, it 
is where we stand, where we put our value in terms of human 
rights issues. And I think it is very dangerous. Americans are 
watching our Government to see what we will do and the world is 
watching to see where we stand in terms of important human 
rights issues such as religious freedom which has been an 
important value since this country was founded. So I believe 
that leaving it at the margins is very dangerous and is sending 
a very dangerous message to the world.
    Mr. Smith. Thank you.
    Mr. Sekulow. Mr. Chairman, I would assert again as in my 
opening statement, the ineptness of the State Department's 
relationship with Ms. Abedini. She is represented not just by 
us but ultimately by the U.S. Government who is sitting at that 
table. And I will tell you that in conversations with them, 
they ask us to keep confidential and they ask us to--what 
updates they are doing around the world. For instance, I will 
point out something that was news to us. I don't know if 
Secretary Kerry misspoke when he mentioned the Swedish, but 
they have never been mentioned to us on any phone calls and 
there are countries that have. That is not one of them. He may 
have misspoke, but that would be something to clear up.
    We have also been told on those phone calls, now this is by 
lower-level staff, mostly NEA, so the Near East Affairs 
Department of State, it was absolutely being brought up on the 
margins. So why would Secretary Kerry have been so broad in 
that statement that it was not? And then third and finally, the 
idea that bringing them up would make them hostages or pawns, I 
would beg to differ and state that Mr. Abedini as well as Mr. 
Hekmati and Mr. Levinson already are pawns and they already are 
hostages of Iran. They are American citizens being held by a 
foreign government. We are sitting at the table with them. Some 
have been hostages for nearly 7 years, 2 years, or 444 days. 
They are already at that point. Thank you.
    Mr. Smith. I would just conclude before yielding to Mr. 
Deutch that 2 days ago on December 10th, along with 
Congressman, Chairman Ileana Ros-Lehtinen, I chaired a hearing 
on Coptic Christians and for me it was my fourth hearing in 2 
years on Coptic Christians. And many of us fought very hard to 
get language into the foreign operations appropriations bill 
that conditioned United States aid, it is properly conditioned 
on the Egyptian-Israeli peace agreement at Camp David, but we 
said that on religious freedom, there ought to be 
conditionality there as well.
    We got into the foreign operations bill. Mrs. Clinton 
waived it as the Coptic Christians were being slaughtered, 
churches decimated, monasteries, many of them hundreds of years 
old. We looked askance and embraced Morsi and the Muslim 
Brotherhood. It was appalling. And one of the issues that I 
raised repeatedly again, I think what Ms. Abedini is doing, one 
of the side issues that will help all others, is pointing out a 
huge deficiency. Many Coptic Christian girls have been abducted 
and forced into Islamic marriages. We had a woman who actually 
did the reporting on it, she is a noted human rights 
investigator, bring this information forward. And the 
administration did nothing on it. And that is very disturbing. 
So there is a larger backdrop issue of disregard for religious 
freedom issues that has to change and it has to start with 
Pastor Abedini.
    Mr. Deutch?
    Mr. Deutch. I thank the chairman. I have a couple of 
questions for Dr. Lantos Swett and Dr. Calingaert. Let me start 
by just telling Ms. Abedini that there is a real commitment by 
Congress to bring your husband home and there is a real 
commitment by the entire Government, including the 
administration to bring your husband home. I didn't come to 
this hearing this morning to apologize or come to the defense 
of the administration, but I would respectfully suggest that as 
we address these human rights issues, the best way for us to 
address them, starting with your husband and his release is to 
work in a unified fashion to do it.
    I don't believe, Mr. Sekulow, that it is helpful for us in 
this hearing for the hearing to turn on allegations of 
incompetence and ineptitude by the administration. I just 
wanted to make that point. I look forward to the classified 
briefing that we are going to have with Secretary Kerry and 
others. I can only speak to the briefings with respect to my 
constituent and I know discussions that we have had on a 
broader level about human rights, I would just respectfully 
suggest that there is a real commitment to bringing home--I am 
sympathetic. I understand your frustration. I don't blame you 1 
minute for the immense difficulty and the sadness that you feel 
every day that your husband is not with you and your family. 
That commitment as we have all expressed here is very real.
    Let me just ask Dr. Lantos Swett and Dr. Calingaert a 
question about not just what happens here in the United States 
and in this Congress and the administration, but more broadly 
internationally. First, the Lautenberg amendment here saved the 
lives of many religious minorities in Iran. But multi-
laterally, since--well, every year since 2002, we have worked 
with the Canadians on the U.N. resolution condemning Iran's 
human rights record. In 2011, we successfully led an effort to 
create a Special Rapporteur on human rights in Iran. But 
regardless of what happens and this is the frustration a lot of 
us feel, regardless of what happens on the nuclear profile, it 
appears that human rights, since the human rights situation 
doesn't change, and my question is, even as we are working 
tirelessly focused on individual cases, starting with Pastor 
Abedini, how do we expand this? What is the next big step that 
we can take either domestically or through the United Nations 
to raise awareness of human rights?
    Dr. Calingaert, you talked about making human rights matter 
in Iran for the United States. What is the next big step we can 
take for the United States to lead, for this Congress to lead, 
to make human rights really matter internationally?
    Dr. Lantos Swett, please.
    Ms. Lantos Swett. Well, it is a critical question, one that 
I think those involved in the human rights movement grapple 
with on an on-going basis. But I do think a central part of the 
answer to that question is that human rights, religious freedom 
have to be elevated in the public discourse. At the end of the 
day, we have limited ability to force other governments to do 
things that we want them to do, but we do have the power still 
as the world's indispensable nation to raise the profile of 
their wrongdoing, to make it extraordinarily uncomfortable and 
unpleasant and unwelcoming for them in the community of 
civilized nations. And we have to do that.
    I do think the whole situation with the efforts to reach 
agreement on Iran's nuclear program is an extraordinary window 
of opportunity and shame on us if we miss it. I think a lot of 
people have observed that with sanctions crippling, painful 
biting sanctions that ultimately brought Iran to the table. 
Undoubtedly, it was the unspoken threat of military action 
whether on the part of Israel or other players that have also 
brought them to the table. So it is vulnerability to some 
degree on Iran's part that has broken ground in that arena. 
That vulnerability needs to be exploited, not merely to achieve 
progress on the nuclear front, but to achieve progress on the 
human rights front. That vulnerability speaks to the internal 
situation in Iran specifically.
    We know that the Iranian people are chafing under the 
regime that they are living under. And so I very, very strongly 
believe that we should not let this moment of opportunity slip 
by. It is as if you had somebody in your neighborhood, as it 
were, who was a notorious drug dealer, as well as a notorious 
abuser of their children and their spouse. Well, the drug 
dealing sort of involves spreading a poison and danger out into 
the broader community. That would sort of be the nuclear side 
of what worries us about Iran. The abuse within their home 
would relate to the human rights issues that are of concern to 
us.
    I don't think any of us would be content to say well, for 
the moment they stopped dealing drugs, so we are good. We are 
done, you know? Mission accomplished. We would insist that we 
pursue, in whatever avenues were appropriate, stopping that 
abuse within the house and I think that that needs to be the 
approach that we take as a government.
    Mr. Deutch. Dr. Calingaert, do you have thoughts on how to 
elevate the issue?
    Mr. Calingaert. Yes, Mr. Deutch. I very much agree that it 
is important to address these issues multi-laterally. And I 
like your starting point, the U.N. Special Rapporteur, his 
efforts and the resolutions that Canada and the U.S. have 
pushed are very significant because first of all they put all 
countries on record where they stand in regard to Iran's human 
rights abuses and in that process they show that the concern 
about Iran's human rights record extends far beyond the United 
States and Western Europe, that there are countries around the 
world that think that Iran's record is shameful.
    I think there are many steps that can be taken by the U.S. 
in cooperation with other democratic governments. I don't think 
there is any sort of big breakthrough to be had, but I think it 
is important to push this issue in all these ways on a 
consistent basis. So even starting with the U.N. Special 
Rapporteur, he has been trying simply to get access to the 
country, to be able to have an official visit. I think it is 
important to keep pushing for that.
    His mandate will come up and it is important to renew that 
mandate so that he can continue his important work. The 
collaboration with the European Union is important from the 
examples of sanctions that Dr. Lantos Swett mentioned and also 
bringing attention to individual cases.
    One of the political prisoners that was released in 
September, Nasrin Sotoudeh, was a recipient of the European 
Parliament's Sakharov Prize. I don't think that is a 
coincidence. The fact that there was major attention given to 
her case put pressure on the Iranian Government to release her. 
And that is why I think it is important to push on individual 
cases. It seems like a tough slog, obviously, even the releases 
are pretty few when you consider there are still 800 dissidents 
in detention. And many of them aren't known. But for even the 
few that are released, it sends an important signal to those 
who are still struggling for human rights on the ground, that 
there is hope and especially that the outside world cares about 
their efforts.
    Mr. Deutch. Thank you.
    Mr. Sekulow. If I could, Mr. Chairman, respond to one of 
Congressman Deutch's statements. The incompetence has not been 
at the level of Republicans and Democrats in Congress. It has 
been at a bureaucratic level and it is clear because on 
television, members of the administration of the White House, 
on the National Security Council say one thing happens in the 
negotiation. And the Deputy National Security Advisor said 
something else happens. Secretary Kerry then says something 
else. And I would add for the Congressman with all due respect, 
I know he represents his constituent, Robert Levinson. Seven 
years missing? I don't want to be here 6 years from now. I 
would say that is incompetent, especially when we have an 
opportunity.
    Mr. Deutch. Mr. Sekulow, excuse me. First of all, again, we 
are here today to focus on human rights in a country that has 
absolutely no respect for them. And we are focusing on human 
rights in a country that has immense respect for them. And to 
bring discredit on the men and women who have spent the last 7 
years trying to bring Bob Levinson home, to advance some 
agenda, unknown agenda that I can't fathom, when we are all 
trying to work together to focus on human rights and to bring 
Pastor Abedini home, it is not right.
    Mr. Sekulow. Congressman, things have significantly changed 
and as you are walking out, in the last month we are now in 
negotiations with Iran. That didn't happen 6 years ago, so 
whatever efforts you are talking about before, it was 
different. But in the last 6 weeks, we have a new relationship 
with Iran. We can't think about Iran as, and we still hear this 
from the State Department: ``We have no diplomatic ties.'' 
Well, depending on how you define that when you are sitting 
down at the table regularly, I think the whole situation is 
fundamentally changed. So to accept what was previously done as 
satisfactory is no longer satisfactory, that is what I am 
saying.
    Mr. Deutch. Mr. Sekulow, since my time has expired and you 
have claimed some of the time that I no longer had, I would 
simply tell you that the commitment that exists to bring Pastor 
Abedini home and Mr. Hekmati home and to bring home my 
constituent is real. And have things changed? Absolutely they 
have. And does every one of us here believe that this is an 
issue that should be raised at every single meeting? Yes. I 
have said it. We have all said it and we all need to ensure 
that it happens.
    Mr. Sekulow. But we all know that it hasn't happened.
    Mr. Smith. Will the gentleman yield? The reason why I 
wanted to chair and put together this hearing, along with my 
distinguished colleague from Florida, Ms. Ros-Lehtinen, was 
precisely because of our concern that it was not being raised, 
it had not been integrated in a place where it could have made 
all the difference in the world. And just by way of historical 
fact, it was Ms. Abedini at Frank Wolf's hearing who was told 
``There is nothing we can do'' by the State Department.
    I have worked human rights issues for 33 years. There is 
absolutely everything they can do and I would say 
parenthetically that on Jacob Ostreicher, and I know you have 
helped us on that as has Congressman Ros-Lehtinen. Jacob 
Ostreicher is an American being held now under house arrest, 
but 18 months in Palmasola Prison in Bolivia. Never charged 
with anything. His rice farm was fleeced from him, taken away. 
The prosecutors, the rogue prosecutors, many of them are now in 
prison themselves, but he is still under house arrest. I have 
tried repeatedly and asked Secretary Kerry himself to 
intervene. It has not happened yet. We can't get above the 
level of Assistant Secretary to raise the issue and that man, 
Jacob Ostreicher, a Jewish man and there is anti-Semitism 
involved here. I had three hearings to bring this to the 
attention of the administration and it dropped the ball like a 
ton of bricks on human rights with an American just like with 
this American pastor. For the first year they did nothing. As a 
matter of fact, they were admonished by the administration to 
gag themselves and say nothing. Absolutely the wrong way to go 
about it. He at least got out of prison and he is under house 
arrest, so he is not facing the daily threats that he faced in 
Palmasola.
    So I see parallels, that the State Department goes the path 
of least resistance. Human rights is sidetracked. When we did 
the International Religious Freedom Act back in 1998, and I 
don't care who is in the White House, this has been a problem. 
Religious freedom is always given the back seat. And we put 
into the legislation, not only the establishment of Dr. Lantos 
Swett's commission to hold the administration to account with 
independent verification of what is going on, great reports 
that they do, particularly on recommendations for CPC 
countries, but the training of Foreign Service officers who are 
often clueless, and they are good people, but clueless about 
the nuances that often occur in countries relative to religious 
freedom the lack of it, and the persecution of believers.
    So there has been a backdrop of dropping the ball. I asked 
Secretary of State John Kerry if it was a mainstream issue and 
he said it was not part of the negotiation. That is a serious 
miss. And so I agree. We are working together on this. But we 
are hoping the administration will take the cue from the wife, 
Ms. Abedini, and from those who are concerned, including both 
sides of the aisle to step up, to do more, and especially when 
you are sitting right across from Iranian interlocutors who can 
make the difference. They could say free Abedini today and he 
is on a plane back to his wife and children.
    Mr. Deutch. Mr. Chairman, I agree wholeheartedly with you 
that on every occasion we should do as much as we can to bring 
home Pastor Abedini and to bring home Mr. Hekmati and Jacob and 
my constituent and that we should do everything we can to make 
this issue paramount. I agree with you. I simply point out that 
our goal in addition to bringing home those who have been 
persecuted and held hostage, that our goal, as well, more 
broadly, is to elevate human rights. In this debate, here, to 
elevate human rights in this Congress, to make sure that this, 
and every administration, of either party, puts human rights 
squarely, not only on the table, but right up front. That is 
what we are all striving for. I am simply making the point that 
as we strive to elevate human rights I just hate to see our 
efforts to do that amount to a round attack on the 
administration. And I don't disagree. I think the 
administration, well, let me just finish. I think the 
administration needs to be, as I said, the administration needs 
to be pushed to make sure that human rights matters every 
single day. That is our job. And we do it well. And we need to 
continue to do it.
    And Mr. Chairman, you have been a leader on these issues, 
as long as you have been in this House. And I am grateful for 
it. But I respectfully suggest that it becomes more difficult 
for us to make human rights the fundamental focus that it needs 
to be internationally if it appears that somehow this has 
turned into some sort of round of political squabble. And this 
is the only point I am trying to make.
    Mr. Smith. Just one very brief point and then I think Ms. 
Abedini wants to speak and then we will go to the chair.
    When there is a deficiency, I believe we have a duty to 
speak out. Mrs. Abedini said at Frank Wolf's hearing that she 
was told that there was nothing they can do. Chairman Wolf got 
on the phone, talked to Secretary Kerry. I think he talked to 
him personally and a statement went out immediately. We 
applauded the Secretary of State, all of us, and thanked him 
profusely for doing that.
    Now several months later, sitting across from the Iranians 
again, and the issue is not raised and the wife of Pastor 
Abedini, I think wisely, says ``What is going on here?'' It 
needs to be integrated. It needs to be part of that discussion 
and then he will be released. Otherwise, they take their cue by 
our lack of prioritization. The Iranian issue is over here on 
nuclear matters, but the issue of human rights is somewhere and 
we are not sure where. So that was the reason for the hearing.
    Chairman Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. Ms. 
Abedini, our prayers to you and to your children and may our 
Lord continue to give you, your husband, and your children the 
strength you need to carry on with this important, important 
case. It is not a case. It is your husband. It is the 
children's father. But hearings like this one are important 
because that is the way we can push the administration, 
whatever administration is in power, to do all that it can, to 
do more, to ensure that your husband's release is immediate. 
And you may feel that certain individuals in power have 
abandoned your husband and we can have disagreements about 
that, but the members here are united in a bipartisan manner to 
make sure that we will not remain silent and we will continue 
to push. We are going to continue to raise your husband's case 
so that we can pressure all who can have a say in this to make 
Pastor Saeed's release a higher priority.
    Dr. Lantos Swett, USCIRF has made recommendations to the 
U.S. Government regarding religious freedom in Iran, several of 
which you outlined at a hearing on this same issue in March. 
What is your assessment of the administration's response to 
these recommendations? Do you believe that the U.S. has focused 
so much attention on the nuclear negotiations that it has 
ignored the abysmal human rights record of Iran out of fear of 
angering the regime?
    Also, in October 2010, the Ayatollah Khamenei publicly 
called non-Muslims, religious minorities, enemies of Islam and 
accused them of weakening the faith of Iran's Muslim youth. 
Another leading Ayatollah referred to non-Muslims as sinful 
animals. Statements like these, they incite violence against 
religious minorities. Would you agree with that? Have you 
observed increased violence against these groups following 
these kinds of provocative statements by so-called leaders? And 
despite the recommendations of USCIRF and the European Union's 
decision to individually sanction the judge who gave Pastor 
Saeed this outrageous 8-year sentence, the U.S. has yet to 
sanction this judge and it is not a partisan attack, it is a 
reality. What message does this lack of action send to 
religious minorities and human rights advocates in Iran? The 
Iranian regime's human rights record doesn't improve when the 
U.S. remains silent. It is an issue that doesn't get much 
attention because of the nuclear topic, but whatever the 
administration is in power, do you believe that the 
administration has been silent about Pastor Saeed's case? Do 
you believe it is spoken enough about this case and the case of 
others? I have asked a lot of questions and you can just pick 
whichever one you would like to answer. Otherwise, we would be 
here forever. So we will start with Dr. Lantos Swett.
    Ms. Lantos Swett. Well, I think it would be an 
overstatement to say that they have ignored the human rights 
situation in Iran. And one of the things that I referenced in 
my testimony was a relatively recent statement by the National 
Security Advisor, Dr. Susan Rice. That is a very high-level 
person within the administration and she said, ``Our sanctions 
on Iran's human rights abusers will continue and so will our 
support for the fundamental rights of all Iranians.'' So 
ignore, I think, would be too strong of a term. But I would 
also be remiss if I were not to say that we certainly at USCIRF 
feel that more needs to be done and more can be done.
    Ms. Ros-Lehtinen. Thank you. I am going to cut you off just 
so that we can hear from the others.
    Ms. Lantos Swett. Absolutely.
    Ms. Ros-Lehtinen. Thank you.
    Ms. Lantos Swett. Thank you.
    Ms. Ros-Lehtinen. Ms. Abedini or Mr. Sekulow, whoever would 
like.
    Mr. Sekulow. Thank you, Madam Chairman. And I would say, 
because I do want to clear this up, and Congressman Deutch is 
no longer with us, but my opening statement was all about this 
bipartisan support we have had in Congress which has been 
unprecedented. And it is not an attack, or a Republican or 
Democrat issue. It is an administration that I think Congress 
has also got to deal with. Are you being told what is accurate? 
I hope that briefing, that classified briefing clears what has 
been so difficult for the administration to communicate to us 
which is what is actually being done? And what is not. And when 
is it being done and I would add to that we have been told a 
number of times well Iran has been told this Iranian official, 
that Iranian official, from the President on down. What answer 
have we gotten? We have never been told an answer by Iran.
    This idea that we may be asking sometimes on the margins, 
in a phone call. That is wonderful. What is the response?
    Ms. Ros-Lehtinen. He must not become an asterisk or a 
footnote.
    Mr. Sekulow. Exactly right.
    Ms. Ros-Lehtinen. Thank you. Yes, Ms. Abedini.
    Ms. Abedini. I wanted to make sure Mr. Deutch was here to 
discuss that, but I don't have an agenda. And there is nothing 
more than I would like to see my country united on an important 
issue such as human rights. I have been fighting tirelessly for 
my husband's release for over a year. It has been a lonely road 
for me and the kids as well. I haven't seen my kids most of 
this 444 days as well and they haven't had a mom in the last 
year. But for me, as an American citizen, it was unbelievable. 
I felt abandoned when we had the chance to not necessarily 
discuss it at the nuclear, but as a precondition, as a good-
faith effort which we have done for the Iranian Government with 
the easing of the sanctions and the monetary and prisoners and 
so on.
    I would have expected my Government as we have done good-
faith efforts for Iran to have--I like that example of a drug 
dealer and he is abusing his wife and kids. But what if he is 
abusing your child? You don't demand him to release your child 
before negotiating about the drug dealing? And I expected my 
Government before shaking hands with the world's number one 
violator of human rights issues and support of terrorism, that 
put aside, they have an American citizen----
    Ms. Ros-Lehtinen. Don't get me started about shaking hands.
    Ms. Abedini. Before shaking hands, before negotiating, we 
have done good faith effort. I expected our Government to have 
Iran show a good-faith effort, that they want to work with us. 
This would have been a perfect opportunity for Iran to release 
the three Americans. And again, I don't have an agenda. I am 
not a political person. I am a mom. I am a wife. And as an 
American citizen and millions of American citizens who are 
behind me in this, we do not understand what happened. We do 
not understand. And we are very much upset by it and I very 
much feel abandoned and I feel my husband has been abandoned. I 
do hope he survives that prison and we can bring him home 
quickly.
    Ms. Ros-Lehtinen. Thank you. And the last word to the good 
doctor.
    Mr. Calingaert. Every authoritarian government will push 
back when we bring up human rights. They will fuss. They will 
make excuses. They will say it complicates everything else we 
want to do. That is their instinctive reaction. We should know 
better. The one thing that is clear is that if we don't bring 
something up, they get the message. They get the message that 
we don't care. And I would also again point back to specific 
cases like Maziar Bahari. In 2009, by his own account he felt 
sort of lost in prison and once then Secretary Clinton raised 
his case publicly, his treatment in prison immediately improved 
and that led to his release. So it is critical that we raise 
these cases.
    Ms. Ros-Lehtinen. Thank you very much to all of you. Thank 
you, Mr. Smith. I am sorry, I am going to have to depart. Thank 
you.
    Mr. Smith. Mr. Meadows.
    Mr. Meadows. Thank you so much for being here for your 
testimony. I want to ask just a few clarifying questions.
    Ms. Abedini, if your husband were to be released today, he 
does not have an intention to go back to Iran and work against 
the government, is that correct?
    Ms. Abedini. He does not.
    Mr. Meadows. I knew the answer to that because you had 
shared that, but I think it is important to the American people 
that they realize that this was a pastor working on behalf of 
an orphanage, of those who were really ministering the Iranian 
people and that he was convicted and held for a trespass that 
happened many years prior to that. It was not like he was there 
violating a law at that particular time. To put it in very mild 
terms, it is like me speeding 12 years ago and then somebody 
coming in and changing the speeding law and saying that you 
actually were going above the speed limit and now we are going 
to convict you and throw you in jail. And so that is the 
injustice of it.
    The other part I guess that I would ask if I know that you 
have been working with a number of officials in the State 
Department, in Congress, and throughout. You have expressed 
appreciation to me personally for many of them working and so I 
don't want it to get lost today. You do have an appreciation 
for those that are continuing to work on your behalf, whether 
it is behind the scenes or out front, is that correct?
    Ms. Abedini. Yes, very much so.
    Mr. Meadows. Dr. Lantos Swett, I want to come back to you. 
We have had a number of hearings where you have been here and 
you have raised this issue and there has been a number of times 
I have said, ``Who are the Bonhoeffers, who are the 
Wilberforces of today?'' and I think that you continue to 
champion those causes and I just want to say thank you. By 
raising the issue that we have talked about and raising the 
issue here today, what more can we do in a bipartisan 
congressional way to raise the issue, not only of Pastor Saeed 
Abedini, but of the other families, the pictures of whom you 
showed us, how can we come alongside the executive branch, the 
State Department, and encourage them to keep it at the 
forefront so it is not a picture that happens on one hearing, 
on 1 day, and doesn't get raised again. How can we best help 
you in that in a bipartisan manner?
    Ms. Lantos Swett. Well, I will bring up again the Defending 
Freedoms Project which is a specific, concrete initiative of 
Amnesty International, USCIRF, and the Lantos Human Rights 
Commission which I think would be a wonderful means of engaging 
more Members of Congress in sort of embracing this work 
themselves directly. But I would like to say something about 
the role of the Congress, in general, and I am very sorry that 
my good friend Congressman Deutch isn't still here because I 
think Congress has an extraordinary role, has had an 
extraordinary role historically in being the conscience of our 
nation when it comes to human rights. It is simply a fact. I 
actually wrote my Ph.D. dissertation on this subject, so it is 
something very near and dear to my heart. But if you look at 
the history of human rights being legislatively enshrined as a 
principal goal of U.S. foreign policy, it was the work of 
Congress that brought that about in opposition to many 
administrations, one after the other, because every 
administration, every State Department, this isn't a criticism, 
this is the reality, they are balancing many, many different 
items on a big plate and sometimes there is a tendency to put 
human rights in that small box in the corner of the room where 
it can occasionally get a tip of the hat, but it is not 
centrally enshrined. And Congress really has historically 
played that role, going back to the 1970s and saying, ``No, 
this isn't optional. This is essential.'' This is going to be 
part of our official policy that the promotion of human rights 
should be a central and principal goal of American foreign 
policy. And it is so important because that above all plays to 
our strengths. It is when we advocate for our deepest values 
that we are playing to our strengths and playing from our 
strengths.
    And so I would say that Congress has an indispensable role. 
Administrations will always resist and will always push back 
because there will always be other things on the agenda, 
whether it is our economic interest or nuclear concerns.
    Mr. Meadows. Should we tie that to human rights to have an 
economic element to it? I mean because so many times we 
negotiate on economics and we negotiate on human rights and 
they don't come together. Should we tie those together?
    Ms. Lantos Swett. Well, I am a big believer in the school 
of linkage and not decoupling of human rights from our other 
essential foreign policy goals. They are all important, but I 
think that when we link human rights to our other foreign 
policy goals we strengthen our position. And I would say just 
in general and I don't have a specific proposal to put in front 
of you although we obviously talked about the Lautenberg 
amendment and the need to reauthorize that on a multi-year 
basis, but that is an example of Congress acting legislatively 
to, if you will, force any administration's hand. So Congress 
is the legislative body in our Government. You are the ones 
that propose and adopt laws. So I would say a robust human 
rights legislative agenda so that it is beyond resolutions and 
statements and hearings, but as with the Sergei Magnitsky bill 
which again, it was passed over opposition from the State 
Department, opposition from the administration, not because 
they don't share the goals, but they never want their hands 
tied.
    Well, Congress isn't trying to tie any particular 
administration's hands, but sometimes they are trying to force 
our Government's hand in a positive way, to do what we should 
do, to pursue the goals that the administration shares, but 
there are always countervailing arguments. So I would say a 
robust legislative agenda. And most recently, the Sergei 
Magnitsky Act is a really good example of Congress standing 
firm, against very bipartisan. Democrats and Republicans were 
side by side in pushing that forward in the face of opposition. 
It is now the law and that is, I think, a good example of when 
Congress is at its best.
    You have a lot of power when it comes to leading the human 
rights agenda. It is one area of foreign policy where Congress 
usually leads and the administration follows. So in the spirit 
of a tripartite government and co-equal branches of government, 
I would say do not fail to lead in the human rights sector 
because you can pass laws and you can help our Government do 
what it should already be doing.
    Mr. Meadows. I know and I will finish up with this, Mr. 
Chairman, I know that Ambassador Power tweeted out about Saeed 
Abedini and that seemed to have an impact. I know at least some 
of my constituents who picked up on it as a very high profile, 
so would you say the higher the profile that we continue, 
whether it is in tweets or Facebook, or the higher we continue 
to do that in terms of whether it be in the administration or 
chairmen of committees, does that make a real impact, not just 
with Iran, but with China, with a number of others where there 
are human rights violations that occur on a daily basis?
    Ms. Lantos Swett. I absolutely believe that it does and I 
believe my colleague, Dr. Calingaert said earlier, but we have 
heard so much personal eyewitness testimony to this effect. Not 
only does it have an impact at the policy level, but it does 
have an impact at the level of the lives of the people who are 
being persecuted, who are imprisoned, who are suffering. They 
see it almost immediately that when somebody prominent brings 
up their name, when an article appears, when there is a press 
report, their circumstances improve for the better. There is no 
longer the sense of impunity. Impunity is the worst message 
that abusers can get. We can get away with this because yeah, 
nobody is really paying that much attention.
    Mr. Meadows. Well, for those that are listening, let the 
name of Pastor Saeed Abedini echo through these halls of 
Congress today and each day until he is released and let that 
message be there.
    I yield back, Mr. Chairman.
    Mr. Smith. Thank you very much, Mr. Meadows. Mr. Weber.
    Mr. Weber. Thank you, Mr. Chairman.
    Ms. Abedini, I am sorry that you have to be here. I 
appreciate your tenacity and your bravery and your commitment 
to your husband and I just wish that I could have had a chance 
to meet you under other circumstances.
    The Secretary of State came Tuesday and testified and sat 
right there at that table. I didn't get a chance to ask 
questions. We ran out of time, but he made the comment that we 
didn't want to tie the hostages, if you will, to the nuclear 
negotiations. We didn't want to prejudice them. I was outraged. 
We should be the ones prejudiced? They should be afraid of what 
we might do to them and not the other way around, to not tie 
these human rights violations to that regime over there.
    And Dr. Lantos Swett, I want to pick up something you said. 
The administration doesn't want its hands tied and Congress 
doesn't seek to tie the administration's hands. There's one 
administration we would like to tie up, probably more than just 
the hands of and that is the regime in Iran. They should be 
afraid of how we will react, not the other way around. So for 
this administration to take the posture that somehow we can't 
bring human rights violations to the forefront in these 
negotiations, I am told the Iranian people are crying out for 
relief. They want out from underneath this regime.
    The sanctions are working. Why would we give them up now? 
We have people that they have held, our own Americans that they 
have held. We should make this in the forefront. We should hold 
their feet to the fire and make this the absolute hallmark of 
our negotiations. If they want to show us they want out from 
underneath the sanctions, if they want to be a better world 
neighbor, then they better start by acting like it. So I would 
encourage you, and I am sure you have, to put the pressure on 
the State Department and this administration to say that we are 
no longer going to be concerned with some political correctness 
that somehow we are going to prejudice the Iranian regime. Are 
they kidding me? We need to take them to task in a major way. I 
am sorry, I had to get that off of my chest. Now I have a 
question.
    Mr. Sekulow, am I pronouncing that correctly?
    Mr. Sekulow. That is correct, Congressman.
    Mr. Weber. Your dad is Jay Sekulow. I have followed you all 
for a number of years and I appreciate your all's work. Are you 
getting the sense that we are being able to elevate the 
discussion, as my colleague, Mr. Meadows said, and to bring up 
Pastor Saeed's name in circles and to make it clear and evident 
that we will not let this die. Are the Iranian people getting 
that message? Are we getting any kind of help from inside? Are 
you aware of that? Or maybe that is a question for all of you. 
What say you?
    Mr. Sekulow. Sure. I would say because I know Congressman 
Deutch did not like the word ``incompetent'' used. But as 
Congressman Meadows and as you just brought up as well, 
Congressman Weber, it is the idea that people's good work 
inside our Government, inside our Government, even inside 
possibly the Iranian Government is at some point being 
undermined by higher officials. So it would be someone like an 
Under Secretary or a Secretary of State or a Foreign Minister 
who says, eh, we are not going to--I have got the info, I have 
got the briefing, but we are not going to talk about this at 
these meetings. And so when Secretary Kerry was so clear and 
left nothing--he said he has more to tell you about what their 
efforts are, non-nuclear related. We believe if the sanctions 
fall, Saeed is lost.
    Mr. Weber. We lose our leverage.
    Mr. Sekulow. So I want to make clear that as representing 
the Abedini family that we support a new sanctions regime if 
Iran were to violate any of the agreements. We support those 
efforts by the House and I believe we missed one major 
opportunity, the precondition. But they are already hostages. 
They are already pawns and so though the administration did 
miss that opportunity as a precondition to economic relief for 
Iran.
    Mr. Weber. They don't want their people to suffer while 
they have our people held in suffering.
    Mr. Sekulow. They have three Americans held hostage. Our 
U.S. Government believes that Iran knows where Robert Levinson 
is. Thank you, Congressman.
    Mr. Weber. Thank you. Dr. Lantos Swett, are we getting help 
from inside the Iranian nation? Are they rallying? Are they 
paying attention or are they taking heart from what is 
happening over here?
    Ms. Lantos Swett. I don't know that I have the answer to 
that question. I think that the reports would certainly 
indicate that the Iranian people, as you said, are desperate 
for relief from the sanctions regime, but something else that 
has been infrequently reported on is that they are desperate 
for relief from being perceived as a pariah nation. Obviously, 
75 million people, a lot of those people, the majority of those 
people are very good people, just like you and me. They want to 
be part of a legitimate country and they are chafing not just 
under the economic bite of these sanctions, but under the 
terrible and well-deserved reputation that their nation has 
earned through its horrible abuses.
    I would make one point about the importance of aggressively 
raising the release, in particular, of these three Americans 
and we are all very focused on Pastor Abedini today. And that 
is that it is easy. That is something that Iran can do with 
utter and total ease. That is simply a matter of saying done. 
It is like the old easy button. I can't remember which store it 
was that used to feature that.
    Mr. Weber. It is Staples, but don't remember.
    Ms. Lantos Swett. If they are unwilling to do something so 
easy, so easy, then I think we have to be concerned about their 
willingness to do something very hard which is unwind a very 
elaborate and deceptive and deeply embedded nuclear program.
    Mr. Weber. You said it well. Our values, our country's 
values of individual freedom and religious freedom and after 
all, that is why you all are involved, we are all involved 
here, should be the absolute, as I said, hallmark of any of our 
negotiations. And to think that anything else can be different 
is naive. And I don't mean to get you off, but I want to go to 
the good doctor down here. Do we have any information from 
inside Iran--I am coming back to you, Ms. Abedini, in just a 
second--that we are getting support, our actions over here. Are 
we making a difference?
    Mr. Calingaert. Mr. Weber, unfortunately, I don't have 
specific information, but I would just reiterate one of the 
points Dr. Lantos Swett made which is that the Iranian people 
have made clear when they have the opportunity, for instance, 
in this recent Zogby poll, that they want to change their 
country. When they are asked what is most important for them, 
they say advancing democracy, protecting civil rights, 
protecting and advancing the rights of women, political reform, 
and obviously, in that kind of context it would improve the 
situation for Pastor Abedini and for all the Iranians, the 800 
dissidents that are still in detention and all the Iranians who 
simply want to speak their mind.
    Mr. Weber. Okay, thank you. And Ms. Abedini, you may or may 
not choose to answer this. You may check with your counselor 
here, but do you still have family in Iran?
    Ms. Abedini. Yes. I have actually been on Iranian media 
quite a number of times. A lot of the news media, Voice of 
America, BBC, and so on, and the feedback that I get, you know, 
the Iranian people were very much devastated when they were 
fighting for their human rights in 2009 and they didn't get 
some kind of support. The Iranian people are like the abused 
family, really are hoping that America and the world would 
stand up and would speak out against all these human rights 
violations. The Iranian people are very much in support of 
that. I can add that.
    Mr. Weber. I am glad to hear that and I want to associate 
myself with my colleagues' remarks. We are going to talk about 
the Pastor Saeed and you and your efforts, Ms. Abedini, and 
your children, and we are going to continue to bring this to 
the forefront. And much to our colleague on the other side of 
the aisle, when there is a failure of the administration, I 
will not be shy about pointing that out. And right now, they 
have a colossal failure in my opinion in trying to relieve some 
of these sanctions without making this in the forefront. I have 
said my piece and I will yield back.
    Thank you, Mr. Chairman.
    Mr. Smith. Thank you very much, Mr. Weber. Mr. DeSantis.
    Mr. DeSantis. Thank you, Mr. Chairman, for having this 
hearing and bringing more attention to this. We must bring back 
Pastor Saeed Abedini. I think that many people have spoken 
eloquently about human rights, religious freedom, and all of 
that is absolutely true, but even if none of those issues were 
at stake, he is an American citizen. This is an attack not just 
against him and his family, but an attack against all of us, 
this from a regime since its very inception has exhibited abuse 
after abuse, attack after attack against the U.S. and our 
citizens. They detained over 400 Embassy personnel after the 
initial Islamic revolution. They were complicit in the Beirut 
bombing of 1983 which killed over 200 U.S. Marines. And of 
course, they were coordinating and perpetrating attacks against 
our service members in Iraq, not to mention, of course, the 
citizens of the United States, not just Pastor Saeed Abedini, 
but Bob Levinson, Amir Hekmati. This is something that is going 
to the heart of all of us. And so I want this to be an issue 
that is dealt with at the highest levels. And I was very 
discouraged when Secretary Kerry said that they had not raised 
the issue in the context of these nuclear negotiations, which 
obviously many people on both sides of the aisle had some 
serious concerns about.
    But let me ask you, Ms. Abedini, you had mentioned that 
when you initially talked to the State Department they said 
there was nothing they could do. Who was it at the State 
Department that basically said there was nothing they could do?
    Ms. Abedini. I don't think I can mention names, but I think 
it was at the lower----
    Mr. Sekulow. It is a desk officer who was the first to 
state that they could not offer any assistance. Again, this is 
the staff level. They are getting direction from others.
    Mr. DeSantis. And Secretary Kerry, to his credit, when he 
found out he immediately put out a statement, but the idea that 
the bureaucracy would be that dismissive when you have a U.S. 
citizen in jeopardy like that that has been essentially 
kidnapped by a totalitarian regime, there are some major, major 
issues going on there. So I was very discouraged to read your 
testimony and to be reminded of the fact that you had actually 
gone and I just think our bureaucracy has got to be very 
responsive to that. That is a very important issue.
    Mr. Sekulow, I guess part of this is in 2009, there was 
this Green Movement that was very, very promising. So some of 
the countries like Egypt, you don't know what is going to end 
up happening. There is pluses and minuses to people like Hosni 
Mubarak, but when you are in Iran, it can't get any worse. So 
any speaking out against the regime is something that I think 
the U.S. should support. The administration purposely did not 
back that, did not provide any even rhetorical support and I 
think the reason is that the President was looking to have 
better relations with the regime and he thought that that would 
jeopardize that. So I am wondering is there a concern that this 
zest for a deal on paper may cause the administration to not 
put forth as much effort on some of these human rights cases 
that could, quite frankly, complicate the ``deal''?
    Mr. Sekulow. Congressman DeSantis, I would say the 
administration did just that. They missed the preconditions to 
negotiations where they could have handled this with Iran 
before sitting down on the nuclear issue and economic relief 
and say hey, you know, you have got three of ours. I mean we 
were talking about broader human rights in Iran. That is a 
long-term strategy. Why we are here today is because of one 
American of three who are being held. As you said, that is 
egregious enough. We didn't have to have that whole agreement 
on a new human rights scheme inside Iran for Iranian citizens 
to get to the next step. We needed to get three Americans home. 
And the administration missed that opportunity.
    Then Secretary Kerry came before the Foreign Affairs 
Committee of which this subcommittee is a part of and said it 
will not be part of the nuclear negotiations. Some have said it 
is on the margins. But he was not really clear if that is even 
the case or if he is informed of that being the case. So what 
we are concerned about is that this administration is so 
focused on appeasing Iran who is threatening even this 
Congress, if you enact sanctions, new sanctions to pull out of 
these agreements that we miss the best opportunity.
    Iran is hurting from the sanctions. We know that. The 
regime hurts because of that. And yet, we did not demand the 
return of three Americans. Not a new human rights scheme in 
Iran. That is a long-term plan that Dr. Lantos Swett and others 
would need to work on. But this was the return of three 
Americans and the administration, I do believe has sacrificed 
them and has betrayed them. We have used that word because we 
know they had an opportunity that did not exist. I was trying 
to make that clear to Congressman Deutch. That opportunity 
didn't exist before, Congressman DeSantis, we know that. We 
weren't sitting down at the table with the Foreign Minister of 
Iran. Our President wasn't on the phone. But now we are and we 
are still, and this has been a problem with the State 
Department, our bureaucracy. We are still living in 2012 
mindset, that we have no diplomatic relations when we all can 
read a newspaper. You don't have to have a security clearance 
to know that these meetings are occurring.
    So yes, we are very concerned that if we don't continue to 
speak out and Congress doesn't make it clear as it has 
throughout this process, the only time we have gotten a 
response back from this administration, I will close with this, 
it has never been proactive. It is reactive. When President 
Obama made the phone call and then they said well, he also 
brought up Saeed, it was the day after the 1-day anniversary of 
Saeed's imprisonment. I was at a prayer vigil outside the White 
House. Naghmeh was at a prayer vigil and they were having them 
around the country.
    Secretary of State Clinton never spoke out even with the 
media attention, congressional support. And then Secretary 
Kerry basically promised during his confirmation hearings to 
Senator Rubio that he would, but he didn't until after the 
Lantos Commission hearing. And by the way, none of that has 
been vocal. These have been two written statements from 
Secretary Kerry. Even when asked about it directly, he will 
never use the name. And then President Obama has also not 
spoken out. And so at a time--and then we are told well, 
because they become pawns and hostages. But Congressman Deutch 
used the word himself. He already called them, they already are 
hostages. And so we are extremely concerned that we missed one 
huge opportunity and that again we would just hope that in this 
confidential briefing, classified briefing to learn so that we 
know from you that it is not just reactive, the public, but 
that there is proactive work being done, because that is not 
clear to us. Thank you, Congressman.
    Mr. DeSantis. Thank you and before I yield back I just want 
to say I think this needs to be a proactive priority, of 
course, for the Congress, but also for the administration. And 
I am skeptical whether you could ever deal with this Iranian 
regime, but the notion that you are going to get a nuclear 
agreement with a regime who will not even return a pastor who 
is wrongly imprisoned, give me a break.
    So thank you, Mr. Chairman, for holding this hearing. I 
yield back.
    Mr. Smith. Well put, Mr. DeSantis, and thank you, Mr. Weber 
for your very strong intervention as well.
    If you have any further questions, I will yield to you, but 
just one final couple of thoughts. Mr. Levinson is an elderly 
65-year-old man, suffers from diabetes and as I think all of 
you have said, we are talking about three individuals. The 
primary focus today obviously is on Pastor Abedini. There was a 
great fear for his life and it seems to me what happens to the 
nuclear negotiations if he is killed? I hate to be so blunt, 
but what happens? The whole bright light of scrutiny will be 
brought to bear on one missed opportunity after another and 
frankly, if Frank Wolf had not held that hearing in March, 
there would have been no statement of concern even then.
    And again, Ms. Abedini, when we all heard you testify at 
Mr. Wolf's hearing, it was powerful. And we all thought, give 
it time. The administration, give them time.
    Just parenthetically, last week I held a hearing on human 
rights abuses in China. It was my 45th hearing on human rights 
abuses in China. We had five daughters of political prisoners 
testifying on behalf of their dads. They were eloquent beyond 
words, compassionate, and they love their dads who are in 
prison being tortured in Beijing. Vice President Biden was 
there at the time and we repeatedly asked him to raise their 
names. Hasn't happened. That is the kind of thing, human rights 
cannot be put somewhere in the back if we expect to see 
progress on it. If we prioritize it, they will prioritize it 
and as you said, Dr. Lantos Swett, this is a very easy thing 
for the Iranians to do. Pastor Abedini can be on the plane home 
tonight if they make that decision. And we are admonishing the 
administration. And we have been doing, all of us, quietly 
after the hearing that was held by Frank Wolf and we are saying 
just do it. We are with you. I couldn't have been and the 
others including Congressman Wolf, couldn't have been more 
outspoken in thanking Secretary Kerry for raising the case, but 
now do it in a way that is most likely to lead to a positive 
outcome and that is his release because we are all deeply 
worried and concerned about his well being and his health.
    Mr. Weber, anything you want to say? I would like to give 
all four of you the opportunity if you would like to say any 
final comments before we close down the hearing.
    Thank you so very much and we will continue on and 
thankfully it will be done in a bipartisan way. The hearing is 
adjourned.
    [Whereupon, at 11:43 a.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                     Material Submitted for the Record



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Photograph of Naghmeh Abedini and her children submitted for the record 
  by the Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on Africa, 
  Global Health, Global Human Rights, and International Organizations


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      Statement for the record from the Honorable Bill Cassidy, a 
 Representative in Congress from the State of Louisiana, submitted by 
 the Honorable Christopher H. Smith, a Representative in Congress from 
 the State of New Jersey, and chairman, Subcommittee on Africa, Global 
      Health, Global Human Rights, and International Organizations


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Material submitted for the record by the Honorable Ileana Ros-Lehtinen, 
 a Representative in Congress from the State of Florida, and chairman, 
            Subcommittee on the Middle East and North Africa


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]

</pre></body></html>
